Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Blood Glucose Test Strips:
   Inappropriate Medicare Payments




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 2000
                      OEI-03-98-00230
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Robert Katz, Project Leader
                             Stuart Wright, Program Specialist

Nancy Molyneaux, Program Analyst
                        Barbara Tedesco, Mathematical Statistician

Cynthia Hansford, Program Assistant
                     Linda Moscoe, Technical Support Staff

Lauren McNulty, Program Analyst
                         Scott Horning, Technical Support Staff

Dave Tawes, Program Analyst

Amy Sernyak, Program Analyst


REGION IV

John Mejia, Office of Audit Services



     To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
             Reports are also available on the World Wide Web at our home page address:

                                    http://www.dhhs.gov/progorg/oei
                            EXECUTIVE SUMMARY

PURPOSE

          To assess the appropriateness of Medicare payments for blood glucose test strips by
          examining critical elements of this Part B benefit, including coverage requirements,
          supplier information and documentation, and beneficiary utilization.


BACKGROUND

          Medicare covers home blood glucose monitors and test strips for beneficiaries who must
          periodically test their blood sugar levels as part of their diabetes management, regardless
          of insulin usage. Prior to July 1, 1998, Medicare coverage was restricted to beneficiaries
          with insulin-treated diabetes. Insulin-treated diabetics usually test their blood glucose
          levels one or more times a day. Medicare allowances for test strips more than doubled
          between 1994 and 1997, increasing from about $102 million in 1994 to $220 million in
          1997. Allowances exceeded $314 million in 1998.

          Suppliers of blood glucose test strips submit claims to the Durable Medical Equipment
          Regional Carriers (DMERCs) for processing and payment. The supplier must have an
          order from the beneficiary’s physician verifying medical need for blood glucose test strips.
          Suppliers signify that they have sufficient documentation to establish Medicare coverage
          of supplies for insulin-treated beneficiaries by appending a ZX modifier to procedure
          codes representing the supplies furnished.

          For this inspection, we collected data from a sample of Medicare beneficiaries with paid
          claims for blood glucose test strips in 1997 and the medical equipment suppliers who
          provided the supplies.


FINDINGS

Medicare allowed $79 million for blood glucose test strips with missing or flawed
documentation. $33 million in test strip claims had insufficient documentation to support
eligibility. An additional $46 million in claims had incomplete orders or no supplier delivery
records.




Blood Glucose Test Strips                          1                                      OEI-03-98-00230
Irregular billing cycles make review of test strip claims difficult. Such irregular
cycles can make it difficult for DMERCs to identify overlapping claims, claims without correct
supporting documentation, and claims containing excessive amounts of test strips.


RECOMMENDATIONS

To address the vulnerabilities identified in this report, we recommend that the
Health Care Financing Administration:

          Alert suppliers of the importance of properly completed documentation to support
          their claims for test strips. This effort should encompass physicians’ orders as well as
          supplier delivery documentation and documentation to support the medical necessity of
          quantities of test strips greater than 100 per month. In addition, the use and meaning of
          ZX modifiers should be emphasized. Further, HCFA should periodically review
          documentation to ensure that it exists and is accurate.

          Require suppliers to indicate actual and accurate “start” and “end” dates on claim
          forms. This action would make it easier for DMERCs to determine the existence of
          aberrant or potential problems, such as overlapping claims or whether documentation is
          needed to support more than 100 test strips a month.

          Promote supplier concurrence and cooperation with the Office of Inspector
          General’s recently issued document entitled, Compliance Program Guidance for the
          Durable Medical Equipment, Prosthetics, Orthotics and Supply Industry. Suppliers
          should be encouraged to establish and adhere to the voluntary compliance program to
          ensure that their operations meet the standards promulgated by the Office of Inspector
          General along with national health care organizations.

          Advise beneficiaries, as part of its outreach service, to report any instances of
          fraudulent or abusive practices (such as receiving excessive or unrequested
          deliveries of test strips) involving their home blood glucose monitors, test strips, or
          related supplies to their DMERCs.

AGENCY COMMENTS

The HCFA concurred with our recommendations. The HCFA noted a number of initiatives that
have reduced the incidence of improper payments in recent years. To specifically address our
recommendations, HCFA stated that (1) DMERCs will continue to stress the importance of
properly completed documentation through a combination of published guidance in supplier
manuals and bulletins and supplier education and outreach seminars, (2) in the 2001 “Work
Change Process,” they will promulgate changes on claims forms to require actual and accurate
“start” and “end” dates, (3) they will work with the National Supplier Clearinghouse to include

Blood Glucose Test Strips                          2                                    OEI-03-98-00230
language in the notifications sent to suppliers awarding them billing numbers to read and adhere
to the OIG’s Compliance Program Guidance for the Durable Medical Equipment, Prosthetics,
Orthotics and Supply Industry, and (4) beneficiary outreach efforts will encourage the reporting
of abusive supplier practices to the DMERCs. The full text of HCFA’s comments can be found in
Appendix B.




Blood Glucose Test Strips                      3                                    OEI-03-98-00230
                             TABLE OF CONTENTS

                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Medicare improperly allowed $79 million for test strip claims . . . . . . . . . . . . . . . . . . . . 10


          Irregular billing cycles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES


          A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          B: Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . 18





Blood Glucose Test Strips                                          4                                                   OEI-03-98-00230
                               INTRODUCTION

PURPOSE

          To assess the appropriateness of Medicare payments for blood glucose test strips by
          examining critical elements of this Part B benefit, including coverage requirements,
          supplier information and documentation, and beneficiary utilization.


BACKGROUND

          Diabetes is an illness characterized by abnormally high glucose or sugar levels in the
          blood resulting from a deficiency of insulin. Insulin is a hormone produced in the
          pancreas which regulates blood sugar levels. When insufficient amounts of insulin are
          produced, serious health complications may result, including heart disease, blindness,
          kidney failure, and poor circulation in the lower limbs, which could lead to amputation.

          There are two main types of diabetes, Type 1 and Type 2. People with Type 1 diabetes
          are dependent on insulin injections to regulate their blood sugar levels. Generally, Type 1
          is diagnosed when patients are children or young adults. Type 2, sometimes called “late
          onset diabetes” mostly affects adults over age 40. Many Type 2 diabetics can manage
          their disease with lifestyle changes, such as special diets and exercise. Approximately 16
          million people have diabetes in the United States. It is the seventh leading cause of death.

          Health care personnel advocate self-monitoring as the key to successful diabetes
          management. Diabetics are taught to use special devices called blood glucose monitors
          or meters to test their blood sugar levels. Typically, patients place a tiny amount of
          fingertip blood on a test or reagent strip which produces a numeric read-out when
          inserted into the monitor. Depending on the results of the read-out, patients can adjust
          their insulin dosages or contact their physicians for further instructions. Patients usually
          test their glucose levels in this manner one or more times a day.

Medicare Coverage of Home Blood Glucose Monitors and Test Strips

          Title XVIII of the Social Security Act prescribes coverage requirements under Part B of
          the Medicare program. Part B covers services and items including durable medical
          equipment (DME). Claims for home blood glucose monitors and test strips are covered
          under Part B within the DME benefit. Suppliers submit claims for reimbursement to




Blood Glucose Test Strips                           5                                      OEI-03-98-00230
          DME regional carriers (DMERCs). The four DMERCs process all Medicare claims for
          prosthetics, orthotics, medical supplies, and other DME. They are under contract with
          the Health Care Financing Administration (HCFA), the agency which administers the
          Medicare program.

          A blood glucose monitor and the supplies needed to use it effectively are covered if the
          beneficiary meets these requirements: 1) the patient is under a physician’s care for
          diabetes; 2) the glucose monitor and related accessories and supplies have been ordered
          by the patient’s treating physician; 3) the patient (or patient’s caregiver) has been trained
          to use the required equipment in an appropriate manner; and 4) the equipment is designed
          for home rather than clinical use.

Medicare Payment Policies and Expenditures

          Prior to July 1, 1998, Medicare coverage for home blood glucose monitors and test strips
          was restricted to beneficiaries with Type 1, or insulin-treated diabetes. Medicare
          expanded coverage on that date to beneficiaries with Type 2, or non-insulin treated
          diabetes. Medicare allowances for test strips more than doubled between 1994 and 1997,
          increasing from about $102 million in 1994 to $220 million in 1997. Allowances
          exceeded $314 million in 1998.

          Medicare reimburses suppliers for test strips based on monthly fee schedule allowances
          which vary by State. During 1997, the base period of our review, monthly fee schedule
          allowances for test strips ranged between $34.69 and $40.81 for a box of 50 strips.
          Effective January 1, 1998, fee schedule amounts were reduced 10 percent to between
          $31.22 and $36.73 for 50 strips.

Medical Documentation

          The supplier must have documentation from the beneficiary’s physician verifying medical
          need for diabetic testing supplies. For diabetic supplies furnished in 1997, such
          documentation may be an order or prescription which has been signed and dated by the
          ordering physician. This document (hereinafter referred to as an “order” in this report)
          must contain a statement indicating that the patient is a diabetic and is being treated with
          insulin injections. The supplier must indicate on the claim that the order is on file by
          appending the modifier “ZX” for each supply provided. The ZX modifier may only be
          used when these requirements are met. The actual order does not have to be submitted
          with the claim. In addition, when billing for quantities greater than those described as the
          usual replacement frequency (100 test strips a month), the claim must include
          documentation supporting the medical necessity for the higher amount. (These
          documentation requirements were modified when coverage was expanded effective July
          1, 1998.)



Blood Glucose Test Strips                           6                                      OEI-03-98-00230
          The DMERCs have requested that suppliers note on the claim if they are billing for more
          than one month’s supplies. However, there is no limit on the number of months of test
          strips a supplier can bill for at one time.

          The HCFA issued a memorandum in December 1998 entitled, “Durable Medical
          Equipment Carrier (DMERC) Billing Procedures.” The HCFA stated that claims
          involving supplies provided periodically, such as test strips, should not be submitted more
          frequently than monthly. By limiting the billing to a 30-day cycle, HCFA indicated the
          program would save extensive program dollars and would simplify the review process at
          the same time.

          Medicare also requires suppliers to maintain detailed records of items furnished to
          beneficiaries, including brand name, model number, quantity, and delivery dates.
          Suppliers are required to retain evidence of the delivery of DME items, such as copies of
          receipts and pick-up slips. This documentation may be requested by the DMERCs to
          verify delivery of the items.

          In June 1999, the Office of Inspector General issued a document entitled, Compliance
          Program Guidance for the Durable Medical Equipment, Prosthetics, Orthotics and
          Supply Industry. This document can be located on the World Wide Web at
          http://www.hhs.gov/progorg/oig/modcomp/cpgfinl.htm. The Guidance, which was
          prepared in consultation with health care trade organizations, was designed to promote a
          higher level of ethical and legal conduct among providers of medical equipment and
          supplies. The Guidance details specific problems which we encountered in our
          inspection, such as the improper use of ZX modifiers and delivering and billing for
          supplies without a physician’s order.


METHODOLOGY

Sampling

          We first selected a simple random sample of 555 Medicare beneficiaries with paid claims
          for blood glucose test strips in 1997. The beneficiaries were selected from a 1 percent
          DME claims file developed from HCFA’s National Claims History File. We defined our
          sample population as those patients whose claims for test strips averaged $50 per month
          or more. In order to compute point estimates and confidence intervals for inappropriate
          and questionable claims, we treated the beneficiary sample as a single-stage cluster
          sample in which each of the beneficiaries was a cluster and their 1997 claims were the
          unit of analysis. Estimates were made only for the universe of beneficiaries with claims
          averaging $50 a month or more.




Blood Glucose Test Strips                          7                                     OEI-03-98-00230
          We then checked current Medicare records to ascertain if any sample beneficiaries were
          shown as deceased. We removed these beneficiaries from the sample. In addition, we
          removed beneficiaries from the sample whose test strips were provided by suppliers under
          investigation. The remaining sample consisted of 472 Medicare beneficiaries. In all, 310
          different suppliers had submitted 2,184 claims for Medicare reimbursement for these
          beneficiaries. Since many of the 310 suppliers had provided test strips for multiple
          beneficiaries, our unique supplier-beneficiary combination totaled 540.

Data Collection and Analysis

          Beneficiary information. We collected information from beneficiaries via telephone
          interviews. Questions related to beneficiaries’ medical care and treatment for diabetes,
          frequency of blood sugar testing, how supplies were obtained, and supplier marketing
          practices. We completed telephone interviews with 313 of the 472 beneficiaries, a 66
          percent response rate. The interviews were conducted from December 1998 to June
          1999.

          Supplier information. We mailed 540 survey forms to suppliers, one for each
          beneficiary for whom a claim was filed. In addition to asking suppliers about the types of
          equipment and supplies provided to beneficiaries, we also included questions about their
          business and marketing practices. Of the 540 surveys mailed, 469 were completed and
          returned, an 87 percent response rate. The completed surveys represented 1,902 claims.

          We also asked the suppliers to provide pertinent items of documentation, including the
          physician’s order, copies of HCFA-1500 Medicare claim forms submitted for the selected
          beneficiary in 1997, and documentation indicating the test strips were delivered.
          Additionally, we asked suppliers to submit any records of contact with the sample
          beneficiaries in 1997. Although not a HCFA requirement, we felt such information
          would give us valuable insight into the beneficiary’s history of test strip utilization and
          changing needs. In some cases, suppliers, with our concurrence, substituted comparable
          documentation if requested information was unavailable.

          We reviewed supplier responses to confirm that each piece of requested documentation-­
          particularly the physician order--had been submitted. We examined this documentation
          to ensure that the orders specified that beneficiaries had insulin-treated diabetes in 1997
          and had used test strips to monitor their blood sugar levels. We also examined the
          documentation to ensure they were completed, signed, and dated by the beneficiaries’
          treating physicians.

          According to Medicare guidelines, orders are considered to be completed timely if they
          are dated prior to or within 30 days after the first service date. We decided that if
          multiple orders were submitted, the document which was dated closest or prior to the
          first date of service to be the controlling document for verification purposes. However, if


Blood Glucose Test Strips                          8                                      OEI-03-98-00230
          that order lacked any of the essential elements to support Medicare coverage
          requirements, we examined other documents to see if the missing elements were present.

          In cases where sample beneficiaries were supplied with more than 100 test strips a month,
          we reviewed the documentation to ensure that prescribing physicians had validated such
          quantities of supplies. Initially, however, we reviewed the claims listed in our sample
          database to determine if we could detect claims requiring documentation supporting more
          than 100 test strips a month. Our database reflected dates of service for the claims as
          well as billed dollars which indicated quantities of test strips supplied. For the majority of
          claims, we could easily determine that the additional documentation was not necessary.
          For example, many claims were dated approximately 30 days apart and only contained a
          billing for 100 test strips. For some claims, however, billings indicated supplies of greater
          than 100 test strips. Further, some claims were submitted every two or three months, or,
          in certain cases, in time periods of less than 30 days. We determined, therefore, that the
          only way to confirm whether the additional documentation was needed for these claims
          was to examine copies of HCFA-1500 claim forms along with physician documentation.

          We carefully examined information contained on claim forms, particularly “from” and
          “to” billing dates and any information representing how many months the strips were
          provided for. Absent such information, we generally assumed that quantities billed were
          intended for one month’s use.

          We compared beneficiary and supplier responses to related questions to detect
          inconsistencies and questionable practices. In cases where conflicting responses were
          uncovered, we rechecked beneficiary and supplier responses and pertinent documentation
          before reaching a determination.

          We determined that beneficiaries did not meet Medicare coverage requirements for test
          strips if physician orders were not provided and no reasonable explanation was supplied,
          orders were unsigned, did not pertain to the sample service dates, or did not indicate a
          diagnosis of insulin-treated diabetes.

          This study was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Blood Glucose Test Strips                           9                                      OEI-03-98-00230
                                       FINDINGS

Medicare allowed $79 million for blood glucose test strips
with missing or flawed documentation
$33 million in test strips claims had insufficient documentation to support
eligibility

          Orders for 25 percent of the sampled claims for blood glucose test strips failed to
          establish beneficiaries’ eligibility for the supplies. In these cases, we found that physician
          orders were missing, failed to contain any indication of insulin usage, were unsigned, or
          did not cover the dates of service billed. We estimate that Medicare allowed $33 million
          for test strip claims for which supporting documentation failed to establish beneficiaries’
          entitlement for these supplies. This figure represents the unduplicated total allowances
          for these claims; more than one of the problems cited above was present in some orders.

          Suppliers in our sample appended ZX modifiers to procedure codes on claims for
          reimbursement even though documentation was missing or deficient. Medicare
          guidelines stipulate that ZX modifiers are only to be used when all documentation
          requirements have been met. The actual documentation does not have to be submitted to
          the DMERCs when the ZX modifier is used. However, use of the ZX modifier means
          that the supplier is in possession of all the documents needed to fully support the claim.

          Eight percent of claims were supported by orders that did not cover the service dates
          billed. In these instances, the beneficiaries for whom the flawed orders pertained would
          not be eligible for test strip coverage. Generally, suppliers must have completed orders in
          their possession before providing supplies to beneficiaries. However, we found instances
          where orders were dated months, even years, after the beginning dates of service. In all,
          we received 63 orders which were completed and signed more than 30 days after test
          strips were initially provided. Lengths of time from the initial supply of test strips to
          dates of completed orders ranged from 5 weeks to almost 25 months, with a median of
          more than 4 months.

          About 6 percent of claims had missing orders or orders not signed by physicians. Such
          deficiencies do not meet Medicare eligibility requirements for coverage of blood glucose
          test strips.

          Under the Medicare guidelines in effect for 1997, insulin use was a requirement for
          coverage and reimbursement of test strips. This requirement was modified when
          coverage was expanded on July 1, 1998. For our 1997 beneficiary sample, however, we


Blood Glucose Test Strips                           10                                      OEI-03-98-00230
          found that physician orders for 15 percent of claims did not state that beneficiaries used
          insulin. About half of the $33 million involved beneficiaries who were not eligible for test
          strips because they were not using insulin. In addition, our beneficiary survey revealed
          that 9 percent of the sample beneficiaries did not use insulin during 1997.

An additional $46 million in test strips claims had incomplete orders or no
supplier delivery records

          In addition to documentation problems affecting beneficiaries’ eligibility for blood
          glucose test strips, we found other documentation problems, which included missing or
          incomplete supplier delivery documentation and orders not sufficiently detailed. While
          these problems do not prevent beneficiaries from being eligible for the test strips, they do
          raise questions about beneficiaries’ expected utilization regimens, types and quantities of
          test strips provided, and whether the products were even delivered. These problems
          represent $46 million in allowances, according to our estimates.

          We found 21 percent of claims were supported by orders which were lacking in such
          basic details as the item being ordered (in this case, test strips), in addition to any
          information relating to quantity needed, frequency of utilization, or length of need. Some
          orders even failed to mention the diagnosis. Medicare requires orders to be sufficiently
          detailed enough to include a complete description regarding what is being ordered as well
          as the regimen of use. One DMERC instruction states, “If the order is for supplies that
          will be provided on a periodic basis, the order should include appropriate information on
          the quantity used, frequency of change, and duration of need.”

          Many items billed to the DMERCs require a designated form, such as a certificate of
          medical necessity (CMN) form. However, during the period of our review, no CMN or
          special form was required for test strips. Suppliers were free to design their own “order”
          forms, so long as these forms carried the information which Medicare required. As a
          result, suppliers submitted a variety of forms constituting orders for diabetic testing
          supplies. Some forms were exhaustively detailed, while others were nothing more than a
          line or two written on a physician’s prescription pad.

          Suppliers could not furnish any delivery documentation for 18 percent of claims.
          Medicare requires suppliers to maintain documentation detailing items furnished to the
          beneficiary as well as details regarding the delivery of the items. According to one
          DMERC instruction, “The supplier must also have a detailed record of the items provided
          to the beneficiary which would include brand name, model number, quantity and the date
          of delivery. For durable medical equipment, the supplier should retain delivery and pick-
          up slips. This information must be sent to the DMERCs if requested.”




Blood Glucose Test Strips                          11                                     OEI-03-98-00230
Irregular billing cycles make review of claims for test strips
difficult

          We found that many suppliers submitted claims for reimbursement at irregular intervals
          which we believe made DMERC review of claims difficult. Such irregular cycles can
          make it difficult to identify overlapping claims, claims without correct supporting
          documentation, and claims containing excessive amounts of test strips.

          We found that Medicare does not require billing dates on claim forms to have an ending
          date for repetitive supplies even though HCFA-1500 claim forms have blocks for a start
          date and an ending date. Nearly all of the claims in our sample had the same date in both
          the “from” and “to” fields. Also, claim forms often failed to contain any statement
          indicating how many months were being supplied. Without this information, it was
          difficult to determine whether a supply of test strips was meant for one month or multiple
          months. Adding to this difficulty, we found suppliers frequently billed in intervals ranging
          from less than 30 days to every 3 months. Around 15 percent of the beneficiaries (n=88)
          in the original claims sample of 555 obtained or received two or more test strip supplies
          in time periods under 30 days.

          Irregular billing cycles contribute to the problem of overlapping claims, particularly if
          multiple suppliers are involved. Essentially, overlapping claims present two potential
          problems: 1) excessive supplies of test strips not ordered by the attending physician, and
          2) more than 100 test strips supplied during a 30-day period without physician
          authorization. For example, one beneficiary received test strips from three different
          suppliers during an overlapping time period, and wound up with 600 test strips in one
          month. There was no medical necessity documentation for more than 100 test strips a
          month.

          These irregular billing cycles, coupled with claims having the same “from” and “to” dates,
          made it difficult to determine whether claims in excess of 100 test strips were intended to
          cover more than one month and, as a result, whether additional documentation was
          needed to support the quantity of supplies claimed. However there were cases in which it
          did seem clear that additional documentation was required. We found 60 sampled claims
          with billings for more than 100 test strips a month that we believe lacked documentation
          to support the necessity for such quantities. During the period of our review, suppliers
          were required to obtain documentation supporting the medical need for quantities
          exceeding 100 test strips a month, such as a written statement from the ordering
          physician. In one example, a beneficiary received 500 strips over a 3-month period,
          despite the fact that the physician order indicated that she only tested 20 times per week.
          In another case, a supplier provided a beneficiary with 100 test strips on April 3, 1997
          and another 100 strips on April 4, 1997. The physician’s order did not contain any
          documentation to support the medical necessity of more than 100 test strips a month.


Blood Glucose Test Strips                          12                                     OEI-03-98-00230
                            RECOMMENDATIONS

To address the vulnerabilities identified in this report, we recommend that the
Health Care Financing Administration:

          Alert suppliers of the importance of properly completed documentation to support
          their claims for test strips. This effort should encompass physicians’ orders as well as
          supplier delivery documentation and documentation to support the medical necessity of
          quantities of test strips greater than 100 per month. In addition, the use and meaning of
          ZX modifiers should be emphasized. Further, HCFA should periodically review
          documentation to ensure that it exists and is accurate.

          Require suppliers to indicate actual and accurate dates on claim forms. This action
          would make it easier for DMERCs to determine the existence of aberrant or potential
          problems, such as overlapping claims or whether documentation is needed to support
          more than 100 test strips a month.

          Promote supplier concurrence and cooperation with the Office of Inspector
          General’s Compliance Program Guidance for the Durable Medical Equipment,
          Prosthetics, Orthotics and Supply Industry. Suppliers should be encouraged to
          establish and adhere to the voluntary compliance program to ensure that their operations
          meet the standards promulgated by the Office of Inspector General along with national
          health care organizations.

          Advise beneficiaries, as part of its outreach service, to report any instances of
          fraudulent or abusive practices (such as receiving excessive or unrequested
          deliveries of test strips) involving their home blood glucose monitors, test strips, or
          related supplies to their DMERCs.

AGENCY COMMENTS

The HCFA concurred with our recommendations. The HCFA noted a number of initiatives that
have reduced the incidence of improper payments in recent years. To specifically address our
recommendations, HCFA stated that (1) DMERCs will continue to stress the importance of
properly completed documentation through a combination of published guidance in supplier
manuals and bulletins and supplier education and outreach seminars, (2) in the 2001 “Work
Change Process,” they will promulgate changes on claims forms to require actual and accurate
“start” and “end” dates, (3) they will work with the National Supplier Clearinghouse to include
language in the notifications sent to suppliers awarding them billing numbers to read and adhere
to the OIG’s Compliance Program Guidance for the Durable Medical Equipment, Prosthetics,


Blood Glucose Test Strips                         13                                    OEI-03-98-00230
Orthotics and Supply Industry, and (4) beneficiary outreach efforts will encourage the reporting
of abusive supplier practices to the DMERCs. The full text of HCFA’s comments can be found
in Appendix B.

OIG RESPONSE

We support HCFA’s continuing efforts to reduce the incidence of improper Medicare payments.
Although HCFA indicated that our estimate of improper payments was based on an extrapolation
from a sample of high use (emphasis added) beneficiaries, we wish to point out that we selected
for our sample those patients whose claims averaged at least $50 per month. We do not believe
that all of these beneficiaries should be defined as high-use beneficiaries.




Blood Glucose Test Strips                      14                                    OEI-03-98-00230
                                                                                 APPENDIX A



                             Estimates And Confidence Intervals

The tables below contain statistical estimates presented in the Findings section of this report. To
calculate the point estimates and confidence intervals for the percentage of claims and total
Medicare allowances we used the Survey Data Analysis (SUDAAN) software package. These
estimates are weighted based on a single-stage cluster sample design. To calculate the point
estimates and confidence intervals for the percentage of Medicare beneficiaries we used the SAS
software package. These estimates are based on a simple random sample design. All estimates
are reported at the 95 percent confidence level. Estimates were made only for the universe of
beneficiaries with claims averaging $50 a month or more.

MEDICARE ALLOWED $79 MILLION FOR BLOOD GLUCOSE TEST STRIPS WITH
MISSING OR FLAWED DOCUMENTATION

Table 1.

                                Claims With Missing or Flawed Documentation

                                                            Point          95% Confidence Interval
                                                            Estimate
 Total Medicare Allowances in 1997 for Glucose Test
 Strip Claims With Missing or Flawed Documentation          $78,939,525    $68,015,130 - $89,863,921

Table 2.
                            Claims Which Failed to Establish Beneficiary Eligibility

                                                            Point          95% Confidence Interval
                                                            Estimate
 Percent of Claims Which Failed to Establish                24.50%         18.68% - 30.32%
 Beneficiary Eligibility

 Total Medicare Allowances in 1997 for Glucose Test
 Strip Claims Which Failed to Establish Beneficiary         $33,009,187    $25,402,245 - $40,616,130
 Eligibility




Blood Glucose Test Strips                              15                                    OEI-03-98-00230
                                                                              APPENDIX A


Table 3.
                                Claims With Other Documentation Problems

                                                          Point         95% Confidence Interval
                                                          Estimate
 Percent of Claims With Other Documentation               33.77%        27.56% - 39.98%
 Problems

 Total Medicare Allowances in 1997 for Glucose Test
 Strip Claims With Other Documentation Problems           $45,930,337   $36,682,684 - $55,177,989

Table 4.
                            Claims With Orders Not Covering the Dates of Service

                                                          Point         95% Confidence Interval
                                                          Estimate
 Percent of Claims With Orders Not Covering the           8.43%         5.57% - 11.29%
 Dates of Service

Table 5.
                                 Claims With Missing or Unsigned Orders

                                                          Point         95% Confidence Interval
                                                          Estimate
 Percent of Claims With Missing or Unsigned Orders        5.52%         2.68% - 8.36%

Table 6.
                               Claims With No Documentation of Insulin Use

                                                          Point         95% Confidence Interval
                                                          Estimate
 Percent of Claims With No Documentation of Insulin       15.24%        9.67% - 20.80%
 Use




Blood Glucose Test Strips                            16                                   OEI-03-98-00230
                                                                           APPENDIX A


Table 7.
                        Beneficiaries Who Said They Did Not Use Insulin in 1997

                                                       Point         95% Confidence Interval
                                                       Estimate
 Percent of Beneficiaries Who Said They Did Not Use    9.45%         8.61% - 10.29%
 Insulin in 1997



IRREGULAR BILLING CYCLES MAKE REVIEW OF CLAIMS FOR TEST STRIPS
DIFFICULT

Table 8.
                   Claims Without Documentation That Test Strips Were Ordered

                                                       Point         95% Confidence Interval
                                                       Estimate
 Percent of Claims Without Documentation That Test     20.75%        15.56% - 25.94%
 Strips Were Ordered

Table 9.
                               Claims Without Delivery Documentation

                                                       Point         95% Confidence Interval
                                                       Estimate
 Percent of Claims Without Delivery Documentation      17.90%        12.63% - 23.17%




Blood Glucose Test Strips                         17                                   OEI-03-98-00230
                                                  APPENDIX B



            Health Care Financing Administration Comments





Blood Glucose Test Strips         18                    OEI-03-98-00230
                                 APPENDIX B




Blood Glucose Test Strips   19        OEI-03-98-00230
                                 APPENDIX B




Blood Glucose Test Strips   20        OEI-03-98-00230
                                 APPENDIX B




Blood Glucose Test Strips   21        OEI-03-98-00230
                                 APPENDIX B




Blood Glucose Test Strips   22        OEI-03-98-00230
                                 APPENDIX B




Blood Glucose Test Strips   23        OEI-03-98-00230
